U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 17, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Charles M. Hallinan v. United States of America,
S.Ct. No. 19-1087

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 4, 2020. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on April 24, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 26, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-1087
HALLINAN, CHARLES M.
USA

MICHAEL M. ROSENSAFT
KATTEN MUCHIN ROSENMAN LLP
575 MADISON AVENUE
NEW YORK, NY 10022
212-940-6631
MICHAEL.ROSENSAFT@KATTENLAW.COM
YAAKOV M. ROTH
JONES DAY
51 LOUISIANA AVE., NW
WASHINGTON, DC 20001
202-879-3939
YROTH@JONESDAY.COM

